Pension Benefit Guaranty Corporation
     Office of Inspector General
            Audit Report




     AUTHORIZATION TO OPERATE
     PBGC INFORMATION SYSTEMS




           August 18, 2010
                             AUD-2010-08 / IT-09-70
                                Pension Benefit Guaranty Corporation
                                                               Office of Inspector General
                                                1200 K Street, N.W., Washington, D.C. 20005-4026



                                                                          August 18, 2010
                                      AUDIT REPORT

TO:             Richard Macy
                Acting Chief Information Officer


FROM:           Joseph A. Marchowsky
                Assistant Inspector General for Audit

SUBJECT:        Authorization to Operate PBGC Information Systems
                Audit Report: AUD- 2010-8/ IT-09-70


During our FY 2009 Federal Information Security Management Act (FISMA) review, we
became aware that PBGC was operating its information technology general support systems and
major applications without the necessary authorizations to operate (ATOs), as required by Office
of Management and Budget (OMB) Circular A-130 and FISMA. The ATO is intended to
document the official management decision made by a senior agency official to allow operation
of a system and to explicitly accept the risk to agency operations, assets, or individuals based on
the implementation of an agreed-upon set of security controls. However, due to fundamental
weaknesses in PBGC’s information technology (IT) infrastructure and PBGC’s ineffective
certification and accreditation (C&A) process, PBGC senior management officials did not have a
valid basis on which to authorize continued operation of PBGC’s information technology
systems.

Our March 22, 2010 FISMA evaluation report, prepared by Clifton Gunderson LLP under
contract to PBGC OIG, described how PBGC’s systemic security control weaknesses posed an
increasing and substantial risk to PBGC’s ability to carry out its mission. We also noted that
PBGC’s management was starting to take actions to correct some of the reported control
weaknesses. During our oversight activities relating to the FISMA evaluation, we became aware
that some PBGC systems were operating without the required authorizations. Thus, OIG
initiated this audit to determine the extent of the issue and to document our findings and
recommendations.

PBGC is in a difficult position with respect to authorizing operation of its general support
systems and other major applications. Because an ATO must be supported by a complete C&A
document, PBGC must address weaknesses in the C&A process before its systems can be
appropriately authorized. OMB guidance does not provide for agencies to issue “conditional” or
“interim” ATOs. In theory, an agency should not operate an information technology system
Authorization to Operate PBGC Information Systems                                                            2
Audit Report No. 2010-8/ IT-09-70

unless it has been properly certified and accredited. However, because PBGC information
systems are indispensable to the achievement of the agency mission, suspension of their use is
not a practicable alternative at this time. Thus, we are recommending that PBGC seek from
OMB a waiver allowing conditional authorization, based on PBGC’s ongoing efforts to improve
information security. While this option is less than ideal, other alternatives (e.g., ceasing use of
the information technology systems until existing problems are remediated) would likely pose an
even greater risk for PBGC’s ability to meet its statutory mission.

Background

The purpose of an IT system security plan is to provide an overview of the security requirements
of the system and describe the controls in place or planned for meeting those requirements.
Updating the system security plan is a part of security accreditation known as Certification and
Accreditation (C&A). The authorization to operate (security accreditation) is required by OMB
Circular A-130, Appendix III. Security accreditation provides a form of quality control and
challenges managers and technical staff at all levels to implement the most effective security
controls possible for an information system, given mission requirements, technical constraints,
operational constraints, and cost/schedule constraints.

Accreditation requires senior agency officials to affirmatively decide to authorize information
systems operation and to explicitly accept the risk to agency operations, assets, or individuals
based on the implementation of an agreed-upon set of security controls. Agency officials must be
given the most complete, accurate, and trustworthy information possible concerning the security
status of their information systems in order to make timely, credible, risk-based decisions on
whether to authorize operation of those systems. By authorizing processing in a system, the
manager accepts its associated risk.

The assessment of risk and the development of system security plans are two important activities
in an agency’s information security program that directly support security accreditation. Since
the system security plan establishes and documents the security controls, it should form the basis
for the authorization, supplemented by the assessment report and the plan of action and
milestones. Reauthorization should occur whenever there is a significant change in processing,
but at least every three years.1

Objective, Scope and Methodology

Our objective was to determine whether (1) each of the PBGC general support systems (GSS)
and major applications had a current Authorization to Operate (ATO) and (2) the Corporation
had remediated identified vulnerabilities in a timely manner. To meet our objective, we reviewed
the ATO documentation submitted with the Fiscal Year (FY) 2008 Certification and
Accreditation (C&A) packages; requested any updated ATOs completed in FY 2009 and FY
2010 to date; reviewed Government regulations and standards, PBGC security policy and
internal control standards; and interviewed PBGC management and staff.


1
 NIST Special Publication 800-18 Rev.1, Guide for Developing Security Plans for Information Systems, dated
February 2006.
Authorization to Operate PBGC Information Systems                                                 3
Audit Report No. 2010-8/ IT-09-70

We conducted this performance audit in accordance with generally accepted government
auditing standards (GAGAS). Those standards require that we plan and perform this audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. The audit was
conducted between September 2009 and June 2010.

Details

PBGC continued to operate IT general support systems and major applications without
remediating known high and medium vulnerabilities. We observed during our FY 2009 FISMA
review that the Corporation’s entity-wide security program lacked focus and a coordinated effort
to resolve deficiencies. As a result, sensitive and critical resources were not adequately protected
because identified vulnerabilities had not been corrected.

During our oversight of the annual FISMA evaluation, OIG became aware of potential problems
with the ATOs. OIG, therefore, initiated an audit of the ATOs for PBGC’s two general support
systems and twelve major applications. We determined that out of the 14 systems, only three had
a current ATO. Without remediation of all the high and 50% of the moderate vulnerabilities, the
remaining eleven systems did not have valid authorizations to operate. In May 2010, senior
PBGC officials confirmed that no new ATOs had been issued since the documents we received
as part of the FY 2008 C&A process.

Specifically we observed that:

•   PBGC continued to use systems with unremediated vulnerabilities. Some of the
    vulnerabilities had been identified as long ago as December 2007.

•   “Conditional” as opposed to “authorized” approvals had been granted because of the
    significant number of high and medium unresolved vulnerabilities. For nine systems, PBGC
    senior officials granted a conditional ATO and allowed continued operation although high
    and medium vulnerabilities had not been remediated. On August 20, 2009 OMB issued
    Memorandum M-09-29 which states that OMB does not recognize an interim authorization
    to operate, as doing so would be counter to FISMA’s goals. Some of the conditional ATOs
    issued by PBGC were signed in March 2008, prior to the specific prohibition on conditional
    ATOs.

•   In December 2007, the certifying agent, information system owner, and Information
    Systems Security Officer (ISSO) concluded that two major systems – My Pension Benefit
    Account (MyPBA) and eTalk-Qfiniti – should be denied an approval to operate, pending
    remediation of all “High” rated items and at least half of all “Moderate” rated items. For
    each of the systems, the reviewers had concluded “we certify that the safeguards designed,
    developed, and implemented have not demonstrated the necessary security to reduce the risk
    of operating the aforementioned system to an acceptable level.” [emphasis in original]
Authorization to Operate PBGC Information Systems                                                                              4
Audit Report No. 2010-8/ IT-09-70

National Institute of Standards and Technology (NIST)2 Special Publication 800-30 states that:

“If an observation or finding is evaluated as a high risk, there is a strong need for corrective
measures. An existing system may continue to operate, but a corrective action plan must be put
in place as soon as possible...” PBGC Certifying and Accrediting authorities initially agreed on
plans for remediation that would be accomplished in a timeframe of 90 days to 6 months. In most
instances, however, the milestones were not met and the interim ATO was renewed or allowed to
expire without further action.

The same publication also describes the magnitude of impact for the exercise of a High
vulnerability: “(1) may result in the highly costly loss of major tangible assets or resources; (2)
may significantly violate, harm, or impede an organization’s mission, reputation, or interest.”

Volume 4 Section I: 1.6.4 of PBGC’s Information Assurance Handbook states that IT Security
management has oversight responsibilities with respect to certification and accreditation. Those
responsibilities include:

•   Ensuring that all information security requirements are properly addressed by each
    information system to ensure compliance with Federal, and PBGC policies and procedures.

•   Working closely with the Information System Owner and Senior Agency Information
    Security Officer (SAISO) to manage information security self-assessments and monitor
    corrective action on findings of new weaknesses.

As part of our review we interviewed the system owner for the general support systems, who was
not aware of the current ATO status. We also analyzed the Plan of Action and Milestone
(POA&M) for the two general support systems and determined that 13 high vulnerabilities were
still outstanding but in some state of remediation. The ISSO asserted that a new ATO had been
signed for the general support systems. When we attempted to corroborate the ISSO’s statement
by reviewing the new ATO, the ISSO stated that that he could not provide the document because
the signed ATO was in the office of a PBGC employee who was on leave. We continued to
follow up on the issue and determined that a new ATO had not been completed, despite the
ISSO’s assertions to the contrary.

The failure to timely remediate the previously identified high and moderate level risks left PBGC
at risk of significant harm to its ability to meet its mission and to its reputation. In addition,
because the systems continue to operate without correction of the vulnerabilities, the Corporation
is not fully compliant with FISMA, OMB Circular A-130 Appendix III, and NIST requirements.




2
 FISMA assigned the responsibility for developing IT security standards and guidelines to the National Institute of Standards and
Technology of the Department of Commerce (see Federal Information Security Management Act of 2002, H.R. 2458).
Authorization to Operate PBGC Information Systems                                                                           5
Audit Report No. 2010-8/ IT-09-70

We recently reported that PBGC was unable to provide an up-to-date and consolidated Plan of
Action and Milestones (POA&M). 3 The lack of an up-to-date POA&M, in turn, resulted in
identified security deficiencies not being tracked and monitored to ensure their prompt
remediation. PBGC agreed with our recommendations to develop a consolidated POA&M,
including tracking milestones and independently validating POA&M activities.

As a result of our work, we made four recommendations to PBGC.

OIG RECOMMENDATION

Request a waiver from OMB to allow for continued operations of information technology
systems, despite the presence of unremediated vulnerabilities and the absence of an effective
certification and accreditation process. (OIG Control Number OIT-108)

PBGC RESPONSE

PBGC agreed that it is important to keep OMB apprised of the status of their systems and noted
that they have briefed both OMB and the PBGC Board of their plans. However, PBGC
determined that they would not seek a formal waiver or conditional certification because OMB
had not requested that they do so. PBGC noted its commitment to keeping their stakeholders
apprised of progress as their plans are implemented. Further, PBGC noted that they were
following advice provided by an OMB approved Federal Information Systems Security Line of
Business. The Corporation requested that OIG accept PBGC’s briefings to OMB on this issue as
well as PBGC’s assertion that they are following an OMB approved Information Systems
Security Line of Business’ advice as an alternative corrective action for this recommendation.

OIG EVALUATION

We accept PBGC’s proposed alternative corrective action. We will continue to monitor PBGC’s
progress in completing new authorizations to operate. If it becomes apparent that PBGC will not
be able to timely complete the C&A process in accordance with FISMA we will request that
PBGC reevaluate its position.




3
  PBGC OIG Report No. EVAL-2010-7/FA-09-64-7, Fiscal Year 2009 Federal Information Security Management Act (FISMA)
Independent Evaluation Report, dated March 22, 2010 completed by an independent public accounting firm under contract and
direction of OIG.
Authorization to Operate PBGC Information Systems                                             6
Audit Report No. 2010-8/ IT-09-70

OIG RECOMMENDATION

Develop a comprehensive corrective action plan to remediate all the high and moderate
vulnerabilities remaining on the PBGC network. (OIG Control Number OIT-109)

PBGC RESPONSE

PBGC agreed with the recommendation. The action will be part of the C&A approach that
PBGC is working with the Bureau of Public Debt (BPD). Additionally, PBGC noted the need to
re-baseline the current list of vulnerabilities because of the many infrastructure and system
changes that have occurred since the vulnerabilities were first identified.

OIG EVALUATION

We concur with PBGC’s response.

OIG RECOMMENDATION

Ensure that an individual takes ownership and provides oversight of the remediation process and
validates corrective actions are completed by the target dates. (OIG Control Number OIT-110)

PBGC RESPONSE

PBGC agreed with this recommendation and deemed that the Acting Chief Information Officer
was best positioned to address these responsibilities.

OIG EVALUATION

We concur with PBGC’s response.
Authorization to Operate PBGC Information Systems                                                   7
Audit Report No. 2010-8/ IT-09-70

OIG RECOMMENDATION

Ensure all ATOs are updated accurately to reflect the current system security state and status of
the POA&M’s. (OIG Control Number OIT-111)

PBGC RESPONSE

PBGC agreed with this recommendation. As ATOs are completed, with the assistance of BPD,
the ATOs will accurately reflect the current system security state and status of POA&Ms when
the ATOs are signed.

OIG EVALUATION

We concur with PBGC’s response.
Authorization to Operate PBGC Information Systems           8
Audit Report No. 2010-8/ IT-09-70

                                                    Appendix A
                                   PBGC Response
Authorization to Operate PBGC Information Systems   9
Audit Report No. 2010-8/ IT-09-70
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
